U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 16, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Martin A. Armstrong v. Securities and Exchange Commission, et al.,
No. 19-392
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 19,
2019. The government's response is now due, after one extension, on January 2, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 3, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0392
ARMSTRONG, MARTIN A.
SEC, ET AL.

GEORGE W. HICKS
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20005
202-389-5000
GEORGE.HICKS@KJRKLAND.COM
THOMAS V. SJOBOLM
LAW OFFICE OF THOMAS V. SJOBLOM
1300 I STREET, NW
SUITE 400E
WASHINGTON , DC 20005

